APPENDIX A

Case: 20-35235, 09/14/2020, ID: 11822680, DktEntry: 8-1, Page 1 of 3

FILED

UNITED STATES COURT OF APPEALS

SEP 14 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

REX DUANE STEPHENSON,
Petitioner-Appellant,
v.
BRANDON KELLY, Superintendent
Oregon St. Penitentiary,

No.

20-35235

D.C. No. 6:17-cv-00685-MC
District of Oregon,
Eugene
ORDER

Respondent-Appellee.
Before:

RAWLINSON and BRESS, Circuit Judges.

The request to stay proceedings (Docket Entry. No. 2) is denied.
The certificate of appealability (Docket Entry No. 2) is denied because
appellant has not shown that “jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
In his request for a certificate of an appealability, appellant asserts a new
claim that his conviction by a non-unanimous jury violated his constitutional rights
but concedes that this claim was never raised in the district court proceedings and

Case: 20-35235, 09/14/2020, ID: 11822680, DktEntry: 8-1, Page 2 of 3

has not been exhausted in the state courts. To the extent appellant seeks to raise
this claim in federal court, this new claim is more properly pursued in an
application for authorization to file a second or successive 28 U.S.C. § 2254
habeas corpus petition in the district court that complies with the requirements of
Ninth Circuit Rule 22-3. Specifically, the application must:
(1) include the proposed second or successive section 2254 petition that the
appellant seeks to file in the district court; and
(2) state as to each claim presented whether it previously has been raised in
any state or federal court and, if so, the name of the court and the date of the
order disposing of such claim(s); and
(3) state how the requirements of section 2244(b) have been satisfied.
9th Cir. R. 22-3(a).
In addition, the application must include copies of all relevant state court
orders and decisions, if reasonably available to the appellant. See 9th Cir. R. 223(b).
If the appellant files a new application in this court for authorization to file a
second or successive 28 U.S.C. § 2254 petition in the district court, the appellant
must show:
(A) the claim relies on a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that was previously
unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the
2

20-35235

Case: 20-35235, 09/14/2020, ID: 11822680, DktEntry: 8-1, Page 3 of 3

evidence as a whole, would be sufficient to establish by clear and convincing
evidence that, but for constitutional error, no reasonable factfinder would
have found the appellant guilty of the underlying offense.
28 U.S.C. § 2244(b)(2); see also 28 U.S.C. § 2244(b)(3).
The Clerk will serve the appellant with a copy of the standard form
application for leave to file a second or successive petition.
If appellant files a standard application for authorization to file a second or
successive 28 U.S.C. § 2254 habeas corpus petition, this court will assign a new
case number to that application.
Any other pending motions are denied as moot.
DENIED.

3

20-35235

